App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13553
Non-Argument Calendar
D.C. Docket No. 6:19-cv-00404-RBD-LRH
TIMOTHY P. MURPHY,
Plaintiff-Appellant,
versus
SUSAN STACY,
Circuit Court Judge,
Defendant-Appellee.
Appeal from the United States District Court
for the Middle District of Florida,

(April 20, 2020)
Before MARTIN, ROSENBAUM, and BRANCH, Cir­
cuit Judges.
PER CURIAM.
Timothy P. Murphy, proceeding pro se, appeals the
district court’s dismissal of his 42 U.S.C. § 1983 com­
plaint against the Honorable Susan Stacy (Judge

App. 2
Stacy), a Florida state circuit court judge who presided
over a portion of Murphy’s state foreclosure proceed­
ings. Murphy presents two arguments on appeal: first,
that the district court erred in denying his motion for
entry of clerk’s default and second, that the district
court erred by considering and applying judicial im­
munity in granting Judge Stacy’s Federal Rule of Civil
Procedure (“Federal Rule”) 12(b)(6) motion to dismiss.
We do not have jurisdiction to review the magistrate
judge’s denial of Murphy’s motion for entry of clerk’s
default, and therefore must dismiss that claim. And be­
cause Judge Stacy was entitled to judicial immunity,
we affirm the district court’s grant of her motion to dis­
miss.
I. Background
Judge Stacy presided over a portion of foreclosure
proceedings against Murphy in Florida state court,
which ultimately ended in a default judgment being
entered and enforced against Murphy. See Christina
Tr./JPMC Specialty Mortg. LLC v. Murphy, Case No.
2010-CA-005287-14-W (Fla. Cir. Ct. 2010). In March
2019, Murphy filed the present suit against Judge
Stacy in her official capacity in federal court. In his in­
itial complaint, he alleged that Judge Stacy violated
his civil rights during those foreclosure proceedings, in
violation of 42 U.S.C. § 1983. Judge Stacy moved to dis­
miss Murphy’s complaint based, in part, on judicial im­
munity. Before the district court ruled on that motion,
Murphy filed an amended complaint and objected to
Judge Stacy’s motion to dismiss. In his amended

App. 3
complaint, Murphy once again referred to the state
court proceedings and alleged that the default judg­
ment in that case was “void.” With regard to Judge
Stacy’s official conduct enforcing the 2014 default judg­
ment against him, he alleged 14 instances, labeled “is­
sues,” that violated his constitutional due process and
equal protection rights. The litany of issues included,
inter alia, issuing orders (such as a writ of possession
of his home and property and allowing opposing coun­
sel to appear telephonically) against court procedure;
enforcing a “void” judgment against him despite evi­
dence that the plaintiff in the state court foreclosure
proceedings had filed a “sham” complaint and made a
fraudulent standing claim; cancelling a hearing Mur­
phy scheduled without reason or notice; allowing op­
posing counsel to file motions against him and raise an
issue without first noticing it, shortening the time for
hearing a motion from him; and denying a motion to
disqualify Judge Stacy that “was legally sufficient,” in
violation of Florida law. The district court denied Judge
Stacy’s motion to dismiss the initial complaint as moot,
given the filing of the amended complaint. Judge Stacy
moved to dismiss the amended complaint on several
grounds, including judicial immunity.
Murphy responded in two ways. First, he opposed
Judge Stacy’s motion to dismiss, arguing that judicial
immunity could not be raised in a Federal Rule 12(b)(6)
motion and that the immunity did not apply to Judge
Stacy’s actions because she knew she acted without
subject matter jurisdiction in the foreclosure proceed­
ings. Second, Murphy moved for the district court clerk

App. 4
to enter default against Judge Stacy, pursuant to Fed­
eral Rule 551 and United States District Court for the
Middle District Court of Florida Rule (“Local Rule”)

1 Federal Rule 55 states in relevant part as follows:
(a) Entering a Default. When a party against whom a judgment
for affirmative relief is sought has failed to plead or otherwise de­
fend, and that failure is shown by affidavit or otherwise, the clerk
must enter the party’s default.
(b) Entering a Default Judgment.
(1) By the Clerk. If the plaintiff’s claim is for a sum
certain or a sum that can be made certain by computa­
tion, the clerk—on the plaintiff’s request, with an affi­
davit showing the amount due—must enter judgment
for that amount and costs against a defendant who has
been defaulted for not appearing and who is neither a
minor nor an incompetent person.
(2) By the Court. In all other cases, the party must
apply to the court for a default judgment. A default
judgment may be entered against a minor or incompe­
tent person only if represented by a general guardian,
conservator, or other like fiduciary who has appeared.
If the party against whom a default judgment is sought
has appeared personally or by a representative, that
party or its representative must be served with written
notice of the application at least 7 days before the hear­
ing. The court may conduct hearings or make refer­
rals—preserving any federal statutory right to a jury
trial—when, to enter or effectuate judgment, it needs
to:
(A) conduct an accounting;
(B) determine the amount of damages;
(C) establish the truth of any allegation by
evidence; or
(D) investigate any other matter.
Fed. R. Civ. P. 55.

App. 5
1.07(b).2 He claimed that Judge Stacy had not filed an
answer within 14 days of the district court’s order
denying her motion to dismiss Murphy’s initial com­
plaint, as required by the (federal and local) rules of
civil procedure and she was therefore in default.
A magistrate judge denied Murphy’s motion for
entry of a clerk’s default, finding that Murphy misun­
derstood the rules of civil procedure: under those rules
Judge Stacy had 14 days to respond to Murphy’s
amended complaint, which she did by moving to dis­
miss it. The magistrate judge’s order did not state a
time for filing objections.
Four days later, the district court granted Judge
Stacy’s motion to dismiss, concluding she was entitled
to judicial immunity, and dismissed Murphy’s
amended § 1983 complaint with prejudice. Murphy
now appeals the district court’s denial of his motion for

2 Local Rule 1.07(b) provides:
When service of process has been effected but no ap­
pearance or response is made within the time and man­
ner provided by Rule 12, Fed. R. Civ. P., the party
effecting service shall promptly apply to the Clerk for
entry of default pursuant to Rule 55(a), Fed. R. Civ. P.,
and shall then proceed without delay to apply for a
judgment pursuant to Rule 55(b), Fed. R. Civ. P. Fail­
ing which, the case shall be subject to dismissal 60 days
after such service without notice and without preju­
dice; provided, however, such time may be extended by
order of the Court on reasonable application with good
cause shown.
U.S. Dist. Ct., M.D. Fla. R. 1.07(b).

App. 6
entry of clerk’s default,3 and the district court’s grant
of Judge Stacy’s motion to dismiss. We take each issue
in turn.
II. Analysis
A. Magistrate Judge’s Denial of Murphy’s Motion
for Entry of Clerk’s Default
The Federal Rules of Civil Procedure set forth a
two-step process for a plaintiff to obtain a default judg­
ment. First, the plaintiff must apply to the clerk for en­
try of default. Fed. R. Civ. P. 55(a). Second, after
receiving the clerk’s entry of default, if the plaintiff’s
claim is not for a sum certain and the defendant is not
an infant or an incompetent person, then the plaintiff
must apply for the court to enter a default judgment.
Fed. R. Civ. P. 55(b)(2). Here, Murphy appeals the mag­
istrate judge’s order denying his motion for entry of
clerk’s default—the first step in the process.
Before we can consider Murphy’s argument that
the magistrate judge erred in denying Murphy’s mo­
tion for the entry of clerk’s default, we must determine
that we have jurisdiction to do so. See United Steel, Pa­
per & Forestry, Rubber, Mfg., Energy, Allied Indus. &
Serv. Workers Int’l Union v. Wise Alloys, LLC, 807 F.3d
1258, 1266 (11th Cir. 2015) (“We must sua sponte ex­
amine the existence of appellate jurisdiction and re­
view jurisdictional issues de novo”). “The law is settled
3 Although Murphy asserts that he is appealing the “district
court’s” order denying his motion for entry of clerk’s default, it
was the magistrate judge who issued the order on this issue.

App. 7
that appellate courts are without jurisdiction to hear
appeals directly from federal magistrates.” United
States v. Schultz, 565 F.3d 1353, 1359 (11th Cir. 2009)
(quoting United States v. Renfro, 620 F.2d 497,500 (5th
Cir. 1980)). Thus, we have long held that where a party
never appealed a magistrate judge’s order to the dis­
trict court, we lack jurisdiction to review the magis­
trate judge’s ruling on appeal. See id. at 1362 (holding
that we had no jurisdiction to review the magistrate
judge’s order denying defendant’s motion to represent
himself because defendant did not appeal the magis­
trate judge’s ruling to the district court); United States
v. Brown, 441 F.3d 1330,1352 (11th Cir. 2006) (holding
that we lacked jurisdiction to review a magistrate
judge’s order quashing a subpoena because the appel­
lant never appealed the ruling to the district court). We
have applied this jurisdictional rule even where the
magistrate judge’s order failed to inform a party of the
applicable time frame in which to object. See Schultz,
565 F.3d at 1361-62.
Here, the magistrate judge—not the district court
judge—entered the order denying Murphy’s motion for
entry of clerk’s default. This was an order on a nondispositive motion, not a report and recommendation.
Murphy never appealed that order to the district court.
We are therefore without jurisdiction to review the
magistrate judge’s order and must dismiss Murphy’s
related claim.

App. 8
B. District Court’s Grant of Judge Stacy’s Rule 12(b)(6)
Motion for Failure to State a Claim
We now turn to the portion of Murphy’s appeal
which we do have jurisdiction to consider: whether the
district court erred by granting Judge Stacy’s motion
to dismiss based on her assertion of judicial immunity.
We review a district court’s grant of judicial immunity
and grant of a Federal Rule 12(b)(6) motion to dismiss
for failure to state a claim de novo. Hill v. White, 321
F.3d 1334, 1335 (11th Cir. 2003); Smith v. Shook, 237
F.3d 1322,1325 (11th Cir. 2001). In so doing, we accept
the complaint’s allegations as true and construe them
in a light most favorable to the plaintiff. Hill, 321 F.3d
at 1335. We liberally construe pro se pleadings. Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th
Cir. 1998).
On appeal, Murphy raises two chief objections to
the district court’s grant of Judge Stacy’s motion to dis­
miss. He first argues that the district court should not
have considered Judge Stacy’s immunity defense in
her motion to dismiss because judicial immunity is not
one of the seven enumerated defenses under Rule
12(b). That argument does not succeed. One of the
seven enumerated defenses in Rule 12(b) is the “failure
to state a claim upon which relief can be granted.” Fed.
R. Civ. R 12(b)(6). A failure to state a claim includes a
situation where an affirmative defense clearly pre­
cludes the claim. See Sibley v. Lando, 437 F.3d 1067,
1070 n.2 (11th Cir. 2005) (per curiam); see also LeFrere
v. Quezada, 582 F.3d 1260, 1263 (11th Cir. 2009) (“If
the complaint contains a claim that is facially subject

App. 9
to an affirmative defense, that claim may be dismissed
under Rule 12(b)(6)”). Accordingly, a district court may
dismiss a complaint for failure to state a claim based
upon the affirmative defense of judicial immunity be­
cause “the defense is an obvious bar given the allega­
tions.” Sibley, 437 F.3d at 1070 n. 2.
All of Murphy’s allegations relate to Judge Stacy’s
conduct as a Florida State circuit court judge. If judi­
cial immunity applies, then, it bars Murphy’s § 1983
claims entirely. See Mireles v. Waco, 502 U.S. 9, 11
(1991) (“[J]udicial immunity is an immunity from suit,
not just from ultimate assessment of damages.”). The
district court therefore did not err in considering
whether Judge Stacy was entitled to judicial immunity
when ruling on her Federal Rule 12(b)(6) motion.
Next, Murphy argues that the district court erred
by dismissing Murphy’s amended complaint based on
Judge Stacy’s judicial immunity. To that end, he as­
serts that Judge Stacy’s actions were not normal judi­
cial functions and that she knowingly acted in the
absence of her jurisdiction by presiding over the fore­
closure proceedings. We disagree.4
A two-part inquiry determines whether judges en­
joy absolute immunity: (1) “did the judge deal with the
plaintiff in [her] judicial capacity;” and, if yes, (2) did
“the judge act[] in the ‘clear absence of all jurisdic­
tion.’ ” Dykes v. Hosemann, 776 F.2d 942, 945 (11th Cir.
4 Because we affirm the grant of judicial immunity, we need
not reach Murphy’s arguments about qualified immunity or state
sovereignty.

App. 10
1985) (en banc) (quoting Stump v. Sparkman, 435 U.S.
349, 357 (1978)). We consider four factors to determine
whether a judge is acting within the scope of her judi­
cial capacity: whether “(1) the act complained of consti­
tuted a normal judicial function; (2) the events
occurred in the judge’s chambers or in open court; (3)
the controversy involved a case pending before the
judge; and (4) the confrontation arose immediately out
of a visit to the judge in his judicial capacity.” Sibley,
437 F.3d at 1070. As to the second prong of the inquiry,
this Court has concluded that the “absence of all juris­
diction” means “a complete absence of subject matter
jurisdiction.”5 See id. at 947. A judge does not lose im­
munity “because the action he took was in error,” or
“was in excess of his authority.” Stump, 435 U.S. at 356.

5 In Stump, the Supreme Court approvingly quoted from
Bradley v. Fisher, 80 U.S. 335 (1871), to further illustrate the
meaning and import of the test’s second prong:
Where there is clearly no jurisdiction over the subjectmatter any authority exercised is a usurped authority,
and for the exercise of such authority, when the want
of jurisdiction is known to the judge, no excuse is per­
missible. But where jurisdiction over the subject-mat­
ter is invested by law in the judge, or in the court which
he holds, the manner and extent in which the jurisdic­
tion shall be exercised are generally as much questions
for his determination as any other questions involved
in the case, although upon the correctness of his deter­
mination in these particulars the validity of his judg­
ments may depend.
Stump, 435 U.S. at 356 n.6 (quoting Bradley, 80 U.S. at 351-52).

App. 11
1. Judicial Authority
We begin with the first prong. In his amended com­
plaint, Murphy compiles a list of 14 actions Judge
Stacy performed, which he says violated his civil
rights, including issuing orders, such as a writ of pos­
session of his home, allowing opposing counsel to ap­
pear electronically, enforcing a state court default
judgment against him, and denying Murphy’s motion
to disqualify Judge Stacy. These acts are all normal ju­
dicial functions and were performed in Judge Stacy’s
capacity as the presiding judge over the foreclosure
case against Murphy. See Dykes, 776 F.2d at 945. Judge
Stacy therefore acted within her judicial capacity in
taking all of the 14 actions of which Murphy com­
plains.
2. Jurisdiction
Because Judge Stacy acted within her judicial ca­
pacity, we can proceed to the next step of the inquiry:
whether Stacy acted in the clear absence of all subjectmatter jurisdiction. We conclude that she did not. By
statute, Florida state circuit courts have exclusive orig­
inal jurisdiction over “all cases in equity.” Fla. Stat.
§ 26.012(2)(c). Foreclosure cases sound in equity. See
Corbin Well Pump & Supply, Inc. v. Koon, 482 So. 2d
525, 527 (Fla. 5th Dist. Ct. App. 1986) (“A lien foreclo­
sure is an equitable action.”). And we have recognized
that Florida State circuit courts have jurisdiction over
foreclosure proceedings. See Cmty. Bank of Homestead
v. Torcise, 162 F.3d 1084, 1087 (11th Cir. 1998).

App. 12
Therefore, as a Florida State circuit court judge, Judge
Stacy did not act in the clear absence of all jurisdiction
in presiding over the foreclosure case against Murphy. 6
Finally, Murphy argues that all those involved in
the state foreclosure action against him—including the
judges, the court clerk, the plaintiffs, and the attor­
neys—are complicit in a conspiracy to deprive Murphy
of his constitutional rights. Because Murphy failed to
raise this argument before the district court, we will

6 Murphy argues that the state court lost any jurisdiction it
may have possessed because the court violated his due process
rights by entering a default judgment against him, without notice
or hearing after he responded to the complaint. However, Murphy
already raised this argument before the state courts and it was
rejected. See Murphy v. Christiana Trust, et. al., 225 So.3d 835
(Fla. 5th DCA 2017) (table). We have held that § 1983 cannot be
used “as a device for collateral review of state court judgments.”
Sibley, 437 F.3d at 1070. Moreover, even assuming arguendo that
Judge Stacy entered a judgment without proper notice and hear­
ing, it would have been at most in error or in excess of her author­
ity, and she would still be entitled to judicial immunity. Stump,
435 U.S. at 356; see also Dykes, 776 F.2d at 948 (explaining in a
parenthetical that “[w]here a court has some subject-matter juris­
diction, there is sufficient jurisdiction for immunity purposes.”
(quoting Adams v. Mcllhany, 764 F.2d 294, 298 (5th Cir. 1985))).
Murphy further claims that Judge Stacy acted in the “clear
absence of all jurisdiction,” because the foreclosure plaintiff never
established it had standing. Even assuming arguendo the plain­
tiff did not have standing, a lack of standing does not deprive a
circuit court of subject matter jurisdiction. See Godfrey v. Reliance
Wholesale, Inc., 68 So. 3d 930, 932 (Fla. 3d Dist. Ct. App. 2011)
(holding that a lack of standing does not deprive a Florida court
of its subject matter jurisdiction). Therefore, this argument fails.

App. 13
not consider it on appeal. See Access Now, Inc. v. Sw.
Airlines Co., 385 F.3d 1324,1331 (11th Cir. 2004).
We therefore AFFIRM in part and DISMISS in part
for lack of jurisdiction.

App. 14
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
TIMOTHY P. MURPHY,
Plaintiff,
Case No. 6:19-cv-404Orl-37LRH

v.
SUSAN STACY,
Defendant.

ORDER
(Filed Aug. 13, 2019)
Defendant Susan Stacy (“Judge Stacy”), a judge
for the Eighteenth Judicial Circuit Court in Seminole
County, Florida, moves to dismiss Plaintiff Timothy P.
Murphy’s pro se complaint against her. (Doc. 16 (“Mo­
tion”).) Plaintiff responded. (Doc. 22.) On review, the
Motion is due to be granted in part.
I. Background
Plaintiff’s claims stem from a state-court foreclo­
sure proceeding against Plaintiff in Seminole County,
Florida, over which Judge Stacy presided (“Foreclo­
sure Case”). (See Doc. 13, pp. 6-11); see also Christi­
ana Tr./JPMC Specialty Mortg. LLC v. Murphy, No.
2010- CA-005287-14-W (Fla. Cir. Ct. 2010). According
to Plaintiff, Judge Stacy violated his due process and
equal protection rights and his right to be heard based
on fourteen decisions she has made in her official

App. 15
capacity as Circuit Court Judge in the Foreclosure
Case between July 2017 and February 2016. (See Doc.
13, pp. 6—11.) These decisions include, inter alia, en­
forcing a “void” default final judgment, allowing the
unjust seizure of Plaintiff’s home, permitting the op­
posing party’s attorney to improperly appear without
the requisite notice and to appear telephonically in vi­
olation of court rules, abruptly cancelling hearings,
failing to address issues raised by Plaintiff, permitting
the opposing party’s attorney to intimidate and harass
Plaintiff, actively representing the opposing party’s in­
terests, and arbitrarily denying Plaintiff’s motions.
(Id.) In sum, Plaintiff contends that “[t]he record
demonstrates that Judge Stacy’s decisions are not
based on the record and recorded evidence as Due Pro­
cess demands, but are intended to force an unjust end­
ing to [Plaintiff’s] rightful pursuit of Justice.” (Id. at
11.) For these violations, Plaintiff seeks $500,000 in
general damages, $600,000 in special damages, and
$500,000 in punitive damages. (Id. at 5.)
Judge Stacy now moves to dismiss Plaintiff’s com­
plaint with prejudice, arguing that Plaintiff’s claims
are barred by absolute judicial immunity, Eleventh
Amendment immunity, qualified immunity, and the
Younger doctrine, and that Plaintiff failed to state a
claim upon which relief may be granted. (Doc. 16.) With
Plaintiff’s response (Doc. 22), the matter is ripe.

App. 16
II. Legal Standards
Federal Rule of Civil Procedure 12(b)(6) permits
dismissal for “failure to state a claim upon which relief
can be granted.” A complaint “that states a claim for
relief must contain ... a short and plain statement of
the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). A complaint does not need de­
tailed factual allegations; however, “a plaintiff’s obli­
gation to provide the grounds of his entitlement to
relief requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action
will not do.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
545 (2007) (alterations and internal quotation marks
omitted). “When there are well-pleaded factual allega­
tions, a court should assume their veracity and then
determine whether they plausibly give rise to an enti­
tlement to relief.” Ashcroft v. Iqbal, 556 U.S. 662, 679
(2009). Such a determination is a context-specific task
requiring the court “to draw on its judicial experience
and common sense.” Id.
III. Analysis
Judge Stacy argues dismissal with prejudice is
warranted because Plaintiff’s claims are barred by, in­
ter alia, absolute judicial immunity. (See Doc. 16, pp. 56.) As the Court finds judicial immunity bars Plain­
tiff’s claims, the Court begins and ends with this argu­
ment.
Under the doctrine of absolute judicial immunity,
“(jludges are entitled to absolute judicial immunity

App. 17
from damages for those acts taken while they are act­
ing in their judicial capacity unless they acted in the
‘clear absence of all jurisdiction.’ ” Bolin v. Story, 225
F.3d 1234, 1239 (11th Cir. 2000) (quoting Stump v.
Sparkman, 435 U.S. 349, 356-57 (1978)). Judicial im­
munity even covers instances where judges are “ac­
cused of acting maliciously and corruptly” in exercising
their judicial decision-making power, Pierson v. Ray,
386 U.S. 547, 553-54 (1967), and “even when the
judge’s acts are in error, malicious, or were in excess of
his or her jurisdiction.” Bolin, 225 F.3d at 1239. “[T]he
district court may dismiss a claim based on absolute
judicial immunity if it represents an ‘obvious bar’
based on the allegations in the complaint.” Williams v.
Alabama, 425 F. App’x 824, 825 (11th Cir. 2011).1
“The Supreme Court established a two-part test
for determining whether a judge enjoys absolute im­
munity.” William B. Cashion Nevada Spendthrift Tr. v.
Vance, 552 F. App’x 884, 886 (11th Cir. 2014) (citing
Stump, 435 U.S. 349). First, courts must determine
“whether the judge dealt with the plaintiff in his judi­
cial capacity.” Id. (citing Dykes v. Hosemann, 776 F.2d
942,945 (11th Cir. 1985)). This determination hangs on
whether: “(1) the act complained of constituted a nor­
mal judicial function; (2) the events occurred in the
judge’s chambers or in open court; (3) the controversy
involved a case pending before the judge; and (4) the
1 While unpublished opinions are not binding precedent,
they may be considered as persuasive authority. See 11th Cir. R.
36-2; see also United States v. Almedina, 686 F.3d 1312, 1316 n.l
(11th Cir. 2012).

App. 18
confrontation arose immediately out of a visit to the
judge in his judicial capacity.” Sibley v. Lando, 437 F.3d
1067, 1070 (11th Cir. 2005) (citing Scott v. Hayes, 719
F. 2d 1562,1565 (11th Cir. 1983)). “[T]hese ‘four factors
are to be broadly construed in favor of immunity,’ and
... ‘in some situations, immunity is to be afforded even
though one or more of the . . . factors is not met.” Wil­
liam B. Cashion Nevada Spendthrift Tr., 552 F. App’x
at 886 (quoting Malina v. Gonzales, 994 F.2d 1121,
1124 (5th Cir. 1993)).
Second, “ [i]f he did act in his judicial capacity, then
[courts] ask whether the judge acted in the clear ab­
sence of all jurisdiction.” Id. (citing Dykes, 776 F.2d at
945). “[T]he necessary inquiry in determining whether
a defendant judge is immune from suit is whether at
the time he took the challenged action he had jurisdic­
tion over the subject matter before him.” Stump, 435
U.S. at 356; William B. Cashion Nevada Spendthrift
Tr., 552 F. App’x at 887 (“The precedents of both the
Supreme Court and the Eleventh Circuit tie judicial
immunity directly to the subject-matter jurisdiction of
the court.”). There is “a distinction between lack of ju­
risdiction and excess of jurisdiction.” Dykes v. Hosemann, 743 F.2d 1488,1495 (11th Cir. 1984).
Illustrative of a clear lack of subject matter
jurisdiction would be a situation where a pro­
bate judge, with jurisdiction only over wills
and estates, would try a criminal case. The
probate judge would not be immune from suit.
On the other hand, if a judge of a criminal case
convicted a defendant of a nonexistent crime,

App. 19
he would merely be acting in excess of his ju­
risdiction and would be immune.
Id. Further, “|j]udges do not lose their judicial immun­
ity even if they act in the absence ofjurisdiction as long
as they do not have knowledge that they lack jurisdic­
tion or act ‘in the face of clearly valid statutes or case
law expressly depriving them of jurisdiction.’ ” Frank­
lin v. Arbor Station, LLC, 549 F. App’x 831, 834 (11th
Cir. 2013) (quoting Dykes, 743 F.2d at 1497)). Ulti­
mately, it’s a “high bar” to show that a judge acted in
the clear absence of all jurisdiction, Thompson v. Musleh, No. 5:15-cv-380-Oc-28PRL, 2016 WL 347052, at *4
(M.D. Fla. Jan. 4, 2016), and “subject matter jurisdic­
tion must be broadly construed where the issue is a
judge’s immunity.” Dykes, 743 F.2d at 1495.
Here, the first part of the judicial immunity test is
easily satisfied: Judge Stacy dealt with Plaintiff in her
judicial capacity. Specifically, Plaintiff contends that
Judge Stacy’s complained-of conduct occurred in her
official capacity as a judge and consisted of her judicial
decisions—a normal judicial function—made in her
chambers or in open court. (See Doc. 13, pp. 4, 6-11);
see also William B. Cashion Nevada Spendthrift Tr.,
552 F. App ‘x at 887 (“Entering orders is a normal judi­
cial function occurring in judicial chambers. . . .”); Cox
v. Mills, 465 F. App’x 885, 887 (11th Cir. 2012) (finding
that “normal judicial functions” include “that the state
court judges held hearings, disposed of motions, and
made recusal decisions”). Further, Plaintiff’s claims
arose out of the Foreclosure Case then-pending before
Judge Stacy, and each “issue” Plaintiff raised arose

App. 20
immediately out of a visit to the judge, either in person
or by motion, in her judicial capacity. (See Doc. 13, pp.
4-11); see also Sibley, 437 F.3d at 1070. Thus, Judge
Stacy acted in her judicial capacity during all conduct
forming the basis for Plaintiff’s claims. See Sibley, 437
F.3d at 1070; Scott, 719 F. 2d at 1565.
The second part of the test is likewise satisfied as
Plaintiff has failed to establish that Judge Stacy acted
in the clear absence of all jurisdiction. See William B.
Cashion Nevada Spendthrift Tr., 552 F. App’x at 886.
Plaintiff contends Judge Stacy acted knowing there
was no subject matter jurisdiction based on: the Fore­
closure Case’s plaintiff’s lack of standing due to a
“sham” pleading and reliance on a “counterfeit note,”
the case constituting a “legal nullity” due to this lack
of standing, and the issuance of a default judgment
without notice and a hearing. (Doc. 22, pp. 4-5.) But
these conclusory allegations are insufficient to meet
the high bar here. Rather, Judge Stacy’s decisions in
the Foreclosure Case were not in the clear absence of
all jurisdiction as state court circuit judges have sub­
ject matter jurisdiction over foreclosure cases. See Fla.
Stat. § 26.012 (discussing jurisdiction of Florida circuit
courts); Beepot v. J.P. Morgan Chase Nat’l Corporate
Servs., Inc., 57 F. Supp. 3d 1358,1379 (M.D. Fla. 2014)
(considering allegations concerning state court judges’
rulings in a foreclosure case and the manner in which
the judges decided the case, and concluding that “the
state circuit court judges were plainly not acting in the
‘clear absence of all jurisdiction’ in resolving the state
foreclosure action”). Thus, construing subject matter

App. 21
jurisdiction broadly, Plaintiff’s claims are barred by ju­
dicial immunity. See Beepot, 57 F. Supp. 3d at 1379; cf.
Drees v. Ferguson, 396 F. App’x 656, 658—59 (11th Cir.
2010) (finding judicial immunity applies where circuit
court judge acted injudicial capacity and had jurisdic­
tion to hear the type of case out of which the challenged
conduct arose).
Ultimately, Plaintiff’s allegations, taken as true,
reveal that Judge Stacy at most acted in error or in
excess of her jurisdiction, but such allegations do not
deprive Judge Stacy of judicial immunity here. See
Stump, 435 U.S. at 356-57 (“A judge will not be de­
prived of immunity because the action he took was in
error, was done maliciously, or was in excess of his au­
thority; rather, he will be subject to liability only when
he has acted in the ‘clear absence of all jurisdiction.’”);
see also Bolin, 225 F.3d at 1239 (noting that judicial
immunity still applies “even when the judge’s acts are
in error, malicious, or were in excess of his or her juris­
diction”); Manning v. Harper, 460 F. App’x 872, 876
(11th Cir. 2012) (“ [I]t is irrelevant whether [the plain­
tiff] is correct that those actions were unfair or in­
volved erroneous interpretations of Florida law or the
facts of his case.”).2 And Plaintiff’s disagreement with
Judge Stacy’s decisions does not change that result.
Stump, 435 U.S. at 363 (“Disagreement with the action
2 Further, to the extent Plaintiff contends Judge Stacy acted
in the absence of jurisdiction based on any procedural errors, ju­
dicial immunity still applies. See Stump, 435 U.S. at 359 (“A judge
is absolutely immune from liability for his judicial acts even if his
exercise of authority is flawed by the commission of grave proce­
dural errors.”).

App. 22
taken by the judge . . . does not justify depriving that
judge of his immunity.”). So Plaintiff’s claims against
Judge Stacy are due to be dismissed with prejudice as
barred by absolute judicial immunity.3
IV. Conclusion
Accordingly, it is ORDERED AND ADJUDGED as
follows:
1.

Defendant, Judge Stacy’s, Motion to Dismiss
Plaintiff’s Amended Complaint with Prejudice
and Memorandum of Law (Doc. 16) is GRANTED
IN PART to the extent Plaintiff’s claims are
barred by absolute judicial immunity.

2.

Plaintiff’s Amended Complaint for Violation of
Civil Rights (Doc. 13) is DISMISSED WITH
PREJUDICE.

3.

The Clerk is DIRECTED to terminate all pending
motions and deadlines and to close the file.

3 Because Plaintiffs cannot plead around absolute judicial
immunity based on Judge Stacy’s alleged violation of his rights in
the underlying Foreclosure Case, Plaintiff will not have an oppor­
tunity amend. See Bryant v. Dupree, 252 F.3d 1161, 1163 (11th
Cir. 2001) (“A district court need not, however, allow an amend­
ment . . . where amendment would be futile.”).

App. 23
DONE AND ORDERED in Chambers in Orlando,
Florida, on August 13, 2019.
[SEAL]

Copies to:
Counsel of Record
Pro Se Party

/s/ Roy B. Dalton Jr.__________
ROY B. DALTON JR.
United States District Judge

App. 24
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13553-GG
TIMOTHY P MURPHY,
Plaintiff - Appellant,
versus
SUSAN STACY, Circuit Court Judge,
Defendant - Appellee.
Appeal from the United States District Court
for the Middle District of Florida
(Filed Jul. 1, 2020)
BEFORE: MARTIN, ROSENBAUM, and BRANCH,
Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by the Appellant
is DENIED.
ORD-41

App. 25
CITATIONS FOR STATUTES/
CONSTITUTIONAL PROVISIONS INVOLVED
TITLE 18, U.S.C., SECTION 241 - If two or more
persons conspire to injure, oppress, threaten, or intim­
idate any person in any State, Territory, Common­
wealth, Possession, or District in the free exercise or
enjoyment of any right or privilege secured to him by
the Constitution or laws of the United States, or be­
cause of his having so exercised the same;. . .
They shall be fined under this title or imprisoned not
more than ten years, or both; and if death results from
the acts committed in violation of this section or if such
acts include kidnapping or an attempt to kidnap, ag­
gravated sexual abuse or an attempt to commit aggra­
vated sexual abuse, or an attempt to kill, they shall be
fined under this title or imprisoned for any term of
years or for life, or both, or may be sentenced to death.
42 U.S.C. § 1983. Civil Action For Deprivation of Rights
- Every person who, under color of any statute, ordi­
nance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities se­
cured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, in­
junctive relief shall not be granted unless a declaratory

App. 26
decree was violated or declaratory relief was unavaila­
ble. For the purposes of this Section, any Act of Con­
gress applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.
U.S. Constitution, 14th Amendment - Section One All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.

